  Office of Inspector General
  Report of Audit




    PERFORMANCE
     PARTNERSHIP
       GRANTS

     Region 6 Oversight of
Performance Partnership Grants

Report No. 1999-000208-R6-100282

       September 21, 1999
Inspector General Division   Central Audit Division
  Conducting the Audit       Dallas, Texas

Region Covered               Region 6

Program Offices Involved     Multimedia Planning and
                              Permitting Division

                             Water Quality Protection
                              Division

                             Compliance Assistance and
                              Enforcement Division

Auditors Conducting Audit:   Dan Howard
                             David Johnson
                                        September 21, 1999


MEMORANDUM

SUBJECT:       Region 6 Oversight of Performance Partnership Grants
               Report No. 1999-000208-R6-100282

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            Gregg Cooke
               Regional Administrator
               Region 6


       Attached is our report entitled Region 6 Oversight of Performance Partnership Grants.
We discussed our findings with your staff and issued a draft report. We summarized your
comments in the final report and included your complete response in Appendix I.

ACTION REQUIRED

        In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide this office a written response to the audit report within 90
days of the final audit report date. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to close this
report.

        This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

        We have no objections to the release of this report to the public. If you have any
questions, please contact me at (913) 551-7831 or Dan Howard, Auditor, at 5-3160. Please refer
to the report number on all related correspondence.

Attachment
                            Region 6 Oversight of Performance Partnership Grants


               EXECUTIVE SUMMARY

INTRODUCTION      The Environmental Protection Agency's (EPA) 1997
                  strategic plan states that the President's “performance
                  partnership” reinvention initiative provides for increased
                  flexibility in how a program is run in exchange for increased
                  accountability for results. Performance partnerships are
                  EPA’s new approach to working with states and tribes
                  (recipients) to better implement environmental programs
                  and achieve environmental results. A performance
                  partnership grant (PPG) is a critical tool for EPA's
                  implementation of performance partnerships. Both
                  performance partnerships and PPGs represent a significant
                  shift in how EPA and its partners work together to address
                  human health and environmental protection.



OBJECTIVES        Our specific audit objectives were to answer the following
                  questions:

                        •        Is Region 6 effectively implementing its PPG
                                 program to ensure that recipients accomplish
                                 overall PPG objectives?

                        •        Has Region 6 negotiated PPG work plans that
                                 include adequate programmatic
                                 accountability?

                        •        Does Region 6's oversight ensure that
                                 recipients accomplish PPG work plan
                                 objectives?




                             i                 Report No. 1999-000208-R6-100282
                              Region 6 Oversight of Performance Partnership Grants

RESULTS IN BRIEF    The Region could have been more effective in implementing
                    the PPG program to ensure that overall program goals and
REGION 6            objectives were accomplished. The PPG program’s goals
IMPLEMENTATION OF   are to reduce administrative burdens and costs, provide
THE PPG PROGRAM     flexibility, strengthen partnerships, and improve
COULD BE IMPROVED   environmental results. Some administrative savings have
                    occurred. However, flexibility has been limited,
                    partnerships need strengthening, and PPG work plans focus
                    primarily on program activities versus environmental results.
                    Oklahoma and Texas chose not to negotiate environmental
                    priorities and goals across grant programs with the Region.
                    Regional and State officials did not always agree on
                    individual roles and responsibilities. States have been
                    reluctant to provide reporting beyond what is in the national
                    databases without additional funding. As a result, all the
                    benefits that EPA thought the program would provide were
                    not realized in terms of accomplishing overall goals and
                    objectives. Further, Region and State staff could not
                    demonstrate whether the program had resulted in improved
                    environmental results and human health.



PPG WORK PLANS      The Region had not negotiated work plans that include
NEED BETTER         adequate programmatic accountability. The work plans did
ACCOUNTABILITY      not contain all core measures, did not clearly define all PPG
PROVISIONS          commitments, and were not finalized prior to the start of the
                    Oklahoma and Texas fiscal year. The Region did not
                    require all core measures be adopted in the agreements.
                    Further, Oklahoma and Texas did not consider that core
                    measures are required and stated that the Environmental
                    Council of States did not bind them to core measures. Also,
                    the two States have not been willing to commit to core
                    measures that cannot be drawn from existing databases.
                    Work plans were not always submitted timely and
                    negotiations were not always initiated and completed timely.
                     As a result, the Region and the two States cannot always
                    determine or demonstrate whether environmental
                    performance or improvements have been accomplished.
                    Additionally, without defining



                              ii                Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

                     commitments until well into the fiscal year, States’
                     programmatic accountability is limited.



REGION 6 OVERSIGHT   The Region did not, in all instances, ensure that PPG work
COULD BE IMPROVED    plan objectives were accomplished. The Region and Texas
                     were able to negotiate a multimedia enforcement
                     Memorandum of Understanding that did not limit the
                     Region’s oversight capabilities, and work plan objectives
                     were clear. Barriers that hindered Regional oversight of
                     Oklahoma stemmed from limitations contained in the fiscal
                     1996 Umbrella Agreement with Oklahoma and clarity of
                     work plan objectives. Further, Regional oversight was not
                     always coordinated among programs. As a result, Regional
                     staff spent time and resources supporting several ways to
                     evaluate work plan objectives rather than on measuring or
                     determining environmental results.



RECOMMENDATIONS      We recommend that the Regional Administrator work with
                     the Region and its states to enhance and improve the
                     effectiveness of the current Regional PPG program. The
                     Region and its states should continue to identify areas
                     where administrative savings can be achieved and to
                     develop self assessment strategies which identify states’
                     overall highest priorities necessary to improve human health
                     and the environment. Further, the Region and its states
                     should highlight and communicate successful efforts to
                     improve partnerships, particularly enforcement partnerships.
                     In addition, the Region and its states should develop work
                     plans which commit to and clearly identify environmental
                     indicators, core performance measures, and describe
                     program activities related to appropriate environmental
                     statutes, regulations and EPA or state policies.




                               iii                Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

REGION 6 COMMENTS    Region 6 generally agreed with our findings and
AND OIG EVALUATION   recommendations.




                               iv                Report No. 1999-000208-R6-100282
                                                                Region 6 Oversight of Performance Partnership Grants


                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        REGION 6 IMPLEMENTATION OF THE
          PPG PROGRAM COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
               PPG GUIDANCE DEFINES PROGRAM
                PURPOSES AND GOALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
               RECIPIENTS HAVE ACHIEVED SOME
                ADMINISTRATIVE SAVINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
               RECIPIENTS USE OF FLEXIBILITY HAS BEEN LIMITED . . . . . . . . . . . . . 8
               PPG WORK PLANS FOCUS PRIMARILY ON
                PROGRAM ACTIVITIES VERSUS ENVIRONMENTAL
                RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
               PARTNERSHIPS SHOULD BE STRENGTHENED . . . . . . . . . . . . . . . . . . . . 11
               CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
               RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
               REGION 6 COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . 13

3        PPG WORK PLANS NEED BETTER ACCOUNTABILITY
          PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14
              REGULATIONS AND GUIDANCE DEFINE
               WORK PLAN COMPONENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          14
              WORK PLANS DID NOT CONTAIN ALL
               CORE MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               15
              OKLAHOMA’S PPG COMMITMENTS WERE NOT CLEARLY
               DEFINED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       17
              WORK PLANS WERE NOT FINALIZED PRIOR
               TO STATES’ FISCAL YEAR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      17


                                                                                        Report No. 1999-000208-R6-100282
                                                            Region 6 Oversight of Performance Partnership Grants

                CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                REGION 6 COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . 19



4     REGION 6 OVERSIGHT COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . .                             21
           PPG GUIDANCE REFERS TO STRENGTHENING PARTNERSHIPS . . . . .                                                     21
           REGION 6 AND TEXAS WERE ABLE TO AGREE ON
             ENFORCEMENT ROLES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 21
           LIMITATIONS IN OKLAHOMA AGREEMENT HINDER
            REGIONAL OVERSIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 22
           OKLAHOMA’S UNCLEAR OBJECTIVES FURTHER LIMITED
            REGIONAL OVERSIGHT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 23
           REGIONAL OVERSIGHT WAS NOT EFFECTIVELY COORDINATED . . .                                                        23
           CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      24
           RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               25
           REGION 6 COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . .                                        25


EXHIBIT

1     SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


APPENDICES

I     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

II    ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

III   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




                                                                                    Report No. 1999-000208-R6-100282
                    Region 6 Oversight of Performance Partnership Grants


            CHAPTER 1
          INTRODUCTION

PURPOSE   The Environmental Protection Agency's (EPA) 1997
          strategic plan states that the President's “performance
          partnership” reinvention initiative provides for increased
          flexibility in how a program is run in exchange for increased
          accountability for results. Performance partnerships are
          EPA’s new approach to working with states and tribes
          (recipients) to better implement environmental programs
          and achieve environmental results. A performance
          partnership grant (PPG) is a critical tool for EPA's
          implementation of performance partnerships. Both
          performance partnerships and PPGs represent a significant
          shift in how EPA and its partners work together to address
          human health and environmental protection.

          This audit is part of the Office of Inspector General (OIG)
          PPGs and National Environmental Performance Partnership
          System (NEPPS) Issue Area Plan dated September 1998.
          OIG made a commitment to assess EPA’s PPG program
          implementation and determine what improvements were
          needed to ensure EPA implemented the program effectively
          and achieved environmental results.

          Our specific audit objectives were to answer the following
          questions:

          •      Is Region 6 effectively implementing its PPG
                 program to ensure that recipients accomplish overall
                 PPG objectives?

          •      Has Region 6 negotiated PPG work plans that
                 include adequate programmatic accountability?

          •      Does Region 6's oversight ensure that recipients
                 accomplish PPG work plan objectives?
          •



                    1                 Report No. 1999-000208-R6-100282
                                      Region 6 Oversight of Performance Partnership Grants

BACKGROUND

PPG Authority and Purpose   Beginning in fiscal 1996, EPA received authority to award
                            PPGs. PPGs were part of EPA’s effort to improve how
                            EPA and its partners protect the environment. A PPG is a
                            multi-program grant made to a recipient from funds
                            allocated and otherwise available for a specific
                            environmental program. PPGs provide recipients with the
                            option to combine grant funds from two or more specific
                            environmental grants (such as those authorized under the
                            Clean Water Act or those used to implement the Clean Air
                            Act) into one or more PPGs. Recipients may then use PPGs
                            to fund activities that are within the scope of the programs
                            included in their PPG. Recipients may include any of the 17
                            eligible grant programs in their PPG.

                            EPA developed PPGs as a response to recommendations
                            from various internal and external stakeholders to increase
                            recipient flexibility, achieve administrative savings by
                            streamlining the grants process, strengthen EPA
                            partnerships with recipients, and help recipients improve
                            environmental results. These recommendations formed the
                            basis for the PPG program's purposes and goals.

                            PPGs are intended to improve the performance of
                            environmental protection programs by providing recipients
                            with greater flexibility in how they manage and implement
                            programs that use grant funds. This increased flexibility will
                            enable recipients to better coordinate and integrate activities
                            which were fragmented in many statutes, regulations, and
                            programs. PPGs should facilitate funding of activities such
                            as pollution prevention, multimedia permits and
                            enforcement, and community-based environmental
                            protection. PPGs are also intended to reduce an
                            administrative burden and ultimately, improve
                            environmental results.

                            EPA designed PPGs to encourage improved environmental
                            results by linking program goals with program outcomes
                            and by increasing the use of environmental indicators and
                            program performance measures. Environmental indicators


                                       2                 Report No. 1999-000208-R6-100282
                                       Region 6 Oversight of Performance Partnership Grants

                             provide information on the environmental conditions,
                             trends, and results. Program performance measures gauge
                             progress in meeting agreed upon goals. Indicators and
                             performance measures create a foundation for better
                             reporting, monitoring, and assessment of state, tribal, and
                             national environmental conditions.

                             All PPGs are required to contain a legally binding set of
                             work plan commitments. PPG program commitments may
                             be contained in categorical work plans, in a performance
                             partnership agreement, or in a tribal environmental
                             agreement (we will refer to all of these documents as PPG
                             work plans). A categorical work plan would be the same as
                             that prepared for a categorical grant. A performance
                             partnership agreement is a negotiated agreement between a
                             region and a state that describes jointly developed goals,
                             objectives, and priorities and may include work plan
                             commitments that are the basis for the PPG. The
                             agreements typically include the strategies to be used in
                             meeting the PPG commitments, the roles and responsibilities
                             of the state and EPA, and the measures to be used in
                             assessing progress.

                             Two of five states in Region 6, Oklahoma and Texas, had
                             PPGs in 1998 and 1999. Texas had a Performance
                             Partnership Agreement (PPA) that included its work plan.
                             Oklahoma had a fiscal 1996 Environmental Performance
                             Partnership Agreement (Umbrella Agreement) and used a
                             Focus Plan as its annual work plan for fiscal 1998 and 1999.
                             Louisiana entered into a PPA in February 1998, with the
                             goal of working toward a PPG. Arkansas is in the early
                             stages of negotiation of a PPG.


PPG Program Organizational   EPA developed interim guidance in 1996 and 1998 that
Structure                    served as the operating guidance for states and tribes
                             interested in applying for PPGs. Regional offices were to
                             use this operating guidance to develop and implement their
                             PPG programs.

                             The Region has designated a Mentor Director for each


                                       3                 Report No. 1999-000208-R6-100282
                                      Region 6 Oversight of Performance Partnership Grants

                            state. The Mentor Director for Oklahoma is the Division
                            Director for Water and the Mentor Director for Texas is the
                            Division Director for the Multimedia Planning and
                            Permitting Division. The Region also had a work group
                            made up of the project officers for each media included in
                            each PPG. The negotiations and oversight are media
                            specific, with project officers responsible for their program.

Relationship between PPGs   On May 17, 1995, state and EPA leaders signed a Joint
and the National            Commitment to Reform Oversight and Create a National
Environmental Performance   Environmental Performance Partnership System. The
Partnership System          objective of this agreement was to accelerate the transition
                            to a new working relationship between EPA and states–one
                            which reflected the advancement made in environmental
                            protection over the preceding 2 decades by both states and
                            EPA. In addition, the agreement recognized that existing
                            policies and management approaches must be modified to
                            ensure continued environmental progress.

                            EPA PPG guidance, dated October 6, 1998, states that the
                            key goals that this new partnership agreement shares with
                            PPGs are:

                                   To allow States and EPA to achieve
                                   improved environmental results by directing
                                   scarce public resources toward the highest
                                   priority, highest value activities; to provide
                                   States with greater flexibility to achieve
                                   those results; to improve public
                                   understanding of environmental conditions
                                   and choices; and to enhance accountability to
                                   the public and taxpayers.

                            Under performance partnerships, EPA and its partners are
                            expected to achieve more integrated environmental
                            management and enhanced environmental results. This
                            new partnership should also enable EPA and its partners to
                            move progressively beyond relying on numbers of permits
                            issued, inspections made, or other similar measures, to




                                       4                 Report No. 1999-000208-R6-100282
                        Region 6 Oversight of Performance Partnership Grants

              performance measures that more directly reflect changes in
              environmental quality.



SCOPE AND     We performed our audit in accordance with Government
METHODOLOGY   Auditing Standards (1994 Revision) issued by the
              Comptroller General of the United States. Our review
              included an analysis of program records and other auditing
              procedures we considered necessary. We conducted our
              fieldwork from January through July 1999. Our review
              included Oklahoma and Texas fiscal 1998 and 1999 PPGs,
              work plans, end-of-year reports, and the proposed
              Oklahoma fiscal 2000 work plan. We performed our
              fieldwork at Region 6, the Oklahoma Department of
              Environmental Quality (ODEQ), and the Texas Natural
              Resources Conservation Commission (TNRCC).

              See Exhibit 1 for scope and methodology details.



PRIOR AUDIT   OIG has not issued any audit reports related to the Region's
COVERAGE      PPG program implementation. However, OIG conducted a
              joint management assistance review with Regional staff of
              Texas 1997 PPA/PPG. As a result of the management
              assistance review, OIG and regional staff suggested that the
              State and Region 6 staff: (1) document reasons for not
              including a core measure and obtain approval from
              headquarters, (2) work toward performance measures
              which are better indicators of environmental outcomes, (3)
              assure that the PPA is clear on all activities that are to be
              performed, (4) share information openly, (5) agree on a
              Consolidated Enforcement Memorandum of
              Understanding, and (6) resolve $2 million in unexpended
              funding.

              In 1996, OIG issued three special reports on demonstration
              grants awarded to North Dakota, Massachusetts, and New
              Hampshire. These grants were predecessors to PPGs and
              contained similar objectives including providing states with


                        5                  Report No. 1999-000208-R6-100282
          Region 6 Oversight of Performance Partnership Grants

more flexibility to address their priorities. The
demonstration grant audits found that: (1) regional internal
turf battles and statutory restrictions were barriers to
moving resources to address priority environmental
problems; (2) states still used activity-based performance
measures due to inadequate guidance or incentive; and (3)
some measures were not time-specific, quantifiable, or
adequate to provide accountability. The reports found
positive aspects of the demonstration grants including some
administrative efficiencies and increased cross-media
enforcement activities.

The U.S. General Accounting Office issued
ENVIRONMENTAL PROTECTION: Collaborative EPA-
State Effort Needed to Improve New Performance
Partnership System, dated June 21, 1999. The audit found
that the development of outcome measures has been
impeded by an absence of baseline data, inherent difficulty
in quantifying certain results, difficulty of linking program
activities to environmental results, and considerable
resources needed for high-quality performance
measurement. The audit also found that EPA's oversight of
states participating in the new system had not been reduced
as anticipated. Among the factors complicating EPA's
oversight was: (1) statutory and/or regulatory requirements
in some cases prescribed the kind of oversight required of
states by EPA, (2) reluctance by EPA staff to reduce
oversight without the measures in place to ensure that
environmental quality would not be compromised, and (3)
the inherent difficulty in “letting go” on the part of some
EPA staff that have implemented the existing EPA-state
oversight arrangement for years. The audit also identified
a number of reported benefits associated with the new
system that included improving communication about
program priorities between EPA and state program staff
and allowing states the option to shift resources and funds
under the PPG program.




          6                 Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants


                     CHAPTER 2
          REGION 6 IMPLEMENTATION OF THE
          PPG PROGRAM COULD BE IMPROVED

                     The Region could have been more effective in
                     implementing the PPG program to ensure that overall
                     program goals and objectives were accomplished. The PPG
                     program goals are to reduce administrative burdens and
                     costs, provide flexibility, strengthen partnerships, and
                     improve environmental results. Some administrative
                     savings have occurred. However, flexibility has been
                     limited, partnerships need strengthening, and PPG work
                     plans focus primarily on program activities versus
                     environmental results. Oklahoma and Texas chose not to
                     negotiate environmental priorities and goals across grant
                     programs with the Region. Regional and State officials did
                     not always agree on individual roles and responsibilities.
                     States have been reluctant to provide reporting beyond
                     what is in the national databases without additional
                     funding. As a result, all the benefits that EPA thought the
                     program would provide were not realized in terms of
                     accomplishing overall goals and objectives. Further,
                     Region and State staff could not demonstrate whether the
                     program had resulted in improved environmental results
                     and human health.



PPG GUIDANCE         PPG guidance, dated July 1996 and October 6, 1998,
DEFINES PROGRAM      describes four goals of the PPG program.
PURPOSES AND GOALS
                     Administrative Savings. Recipients and EPA can reduce
                     administrative burdens and costs by reducing the number of
                     grant applications, budgets, work plans, and reports.

                     Flexibility. Recipients will have the flexibility to address
                     their highest environmental priorities, while continuing to
                     address core program requirements.



                                7                 Report No. 1999-000208-R6-100282
                                 Region 6 Oversight of Performance Partnership Grants

                       Strengthened Partnerships. EPA will develop partnerships
                       with recipients where both parties share the same
                       environmental and program goals and deploy their unique
                       resources and abilities to jointly accomplish those goals.

                       Improved Environmental Results. PPGs will encourage
                       recipients to improve environmental results and more
                       effectively link program activities with environmental
                       goals and program outcomes; and develop innovative
                       pollution prevention, ecosystem, and community-based
                       strategies.



RECIPIENTS HAVE        Oklahoma and Texas have achieved some administrative
ACHIEVED SOME          savings in terms of reduced reporting, through the filing of
ADMINISTRATIVE         only one grant application and one Financial Status Report
SAVINGS                (FSR) versus numerous grant applications and FSRs. The
                       Region and the two States have worked together to identify
                       reports that could be eliminated. Texas officials noted that
                       reporting requirements had been reduced from 250 to
                       approximately 140 under the PPA and that they could use
                       their legislative strategy document for the PPA document.
                       Oklahoma officials used their Focus Plan to serve both the
                       purposes of a work plan for EPA and providing measures
                       for their State budget. However, both States still had to
                       maintain specific cost information because of state
                       legislative requirements.



RECIPIENT USE OF       Oklahoma and Texas have not fully achieved the flexibility
FLEXIBILITY HAS BEEN   goal of the PPG program. Recipients have the flexibility to
LIMITED                address their highest environmental priorities, while
                       continuing to address core program requirements.
                       However, the Region, Oklahoma, and Texas had not
                       negotiated environmental goals and objectives across grant
                       programs. Oklahoma had never moved funds from one
                       program to another to address its highest environmental
                       priorities. Texas had only shifted carryover funds.



                                 8                 Report No. 1999-000208-R6-100282
          Region 6 Oversight of Performance Partnership Grants

Regional officials commented that under the 1996
guidance, states had options, and Oklahoma and Texas
chose not to negotiate environmental priorities across
programs. They also stated that there have been very
significant changes from the past, the program has evolved,
and the Region now has better guidance. An Oklahoma
official stated that under a prototype PPA, a state would do
a self assessment of its overall environmental goals to look
at the environmental problems of the state and write a
report about how the resources would be spent. However,
Oklahoma’s reasons for entering into a PPA were primarily
to define the roles of the state and federal government and
administrative savings. The official further stated that the
fundamental reason for leaving money in a particular
media specific program is because certain fees support
certain specific media programs.

Texas submitted strategic plans that addressed
environmental priorities, but Regional officials stated that
these priorities were by media and not across different
programs. Further, the Region and State have not come to
a consensus on the overall State environmental priorities.
As a result, the Region and the State are determining the
priorities after the end of the fiscal year and have had
disagreements over how to spend carryover funds. Region
6 only required a Texas self assessment to justify the
shifting of unexpended funds for fiscal 1997 and 1998
individually, rather than a self assessment which would
identify the State’s overall long-term environmental
priorities across programs. The Region and Texas have
negotiated shifts for unexpended funding for fiscal 1997
and 1998. However, for both years, agreement on how to
spend the carryover funds took nearly a year after the end
of the fiscal year (August 31). The Region approved the
fiscal 1997 carryover of $2.5 million on April 29, 1998,
and the 1998 carryover of $1.6 million on May 10, 1999.
Texas also submitted a request to shift projected
unexpended funding for fiscal 1999 to the Region in April.
To date, the Region has not approved a shift for fiscal
1999.



          9                 Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

                     Without determining priorities upfront, states may not be
                     addressing their highest overall environmental priorities.
                     For example, in a May 10, 1999 letter approving shifts for
                     unexpended funds to cover a backlog in wastewater permits
                     in Texas, a Regional official informed the State that it had
                     not met all fiscal 1998 performance measures. Several
                     Resource Conservation and Recovery Act (RCRA)
                     authorization packages were overdue by more than several
                     years. Further, these same concerns were raised in the
                     Texas fiscal 1998 end-of-year report and the fiscal 1999
                     midyear report. In addition, Regional officials have raised
                     concerns that the air is getting worse within the State and
                     commented that the shifted funds were unexpended Air and
                     RCRA funds.



PPG WORK PLANS       While the Region has made some progress toward shifting
FOCUS PRIMARILY ON   state focus to program outcomes, the Texas PPA and the
PROGRAM ACTIVITIES   Oklahoma Focus Plan still concentrate primarily on
VERSUS               program outputs. PPGs encourage recipients to improve
ENVIRONMENTAL        environmental results and more effectively link program
RESULTS              activities with environmental goals and program outcomes
                     and develop innovative pollution prevention, ecosystem,
                     and community-based strategies. However, states have
                     been reluctant to provide reporting beyond what is in the
                     national data bases without additional funding. An
                     Oklahoma official commented that establishing
                     environmental indicators depends on the State receiving
                     additional funding.

                     Oklahoma and Texas have recently recognized the need for
                     establishment of better environmental indicators. Texas
                     recognized the need to improve its environmental
                     indicators and has established the State Environmental
                     Assessment group to develop the indicators. Regional
                     officials met with Oklahoma officials in October 1998 to
                     discuss the need to move toward environmental indicators
                     and, according to Regional officials, Oklahoma responded
                     that it would consider environmental indicators. A
                     Regional official pointed out that the proposed 2000 Focus


                               10                Report No. 1999-000208-R6-100282
                         Region 6 Oversight of Performance Partnership Grants

               Plan does include some environmental indicators. For
               example, “By 2005, the number of young children with high
               levels of lead in their blood will be significantly reduced
               from the early 1990's.”

               The Region also recognized that it still has a need to work
               with the two States to develop better environmental
               indicators. A Regional official stated that “we believe that
               some of the measures that Texas identified as environmental
               indicators were misleading or were more in the line of
               ‘efficiency’ measures. Oklahoma did not even identify
               outcome measures or environmental indicators. We
               recognize we have a challenge in bringing this dimension to
               the PPAs.”



PARTNERSHIPS   Disagreements between the Region, Oklahoma, and Texas
SHOULD BE      have weakened the partnership for some programs. A goal
STRENGTHENED   of the PPG program is to develop partnerships with states
               and tribes where both parties share the same environmental
               and program goals and jointly deploy their unique
               resources and abilities to accomplish those goals.
               Oklahoma and Texas officials have expressed concerns
               about the need for better coordination, the program still
               being treated as if it were separate categorical grants, and
               the disagreement over how to shift unexpended funds.
               These disagreements are causing a rift in the partnership
               for some programs.

               The Region had disagreements with both States. The
               Region and Oklahoma have had disagreements over the
               roles and responsibilities of the two agencies, primarily for
               enforcement. An Oklahoma official commented that the
               partnership has been improved in every area except
               enforcement. Officials from both States raised concerns
               that the Region still wants to know how the money is spent
               by media. The Region has had disagreements with Texas
               over how to treat unexpended funds because they have not
               come to a consensus on the same environmental and
               program goals prior to development of the PPA.


                         11                 Report No. 1999-000208-R6-100282
                            Region 6 Oversight of Performance Partnership Grants

CONCLUSION        Not all of the benefits that EPA thought the PPG program
                  would provide were realized in terms of seeing and
                  measuring environmental improvements. While Oklahoma
                  and Texas have achieved some administrative savings,
                  flexibility has been limited because the Region and the two
                  States chose not to negotiate the States’ highest
                  environmental priorities. Further, state work plans
                  continue to focus primarily on program activities versus
                  environmental results and, therefore, improved
                  environmental results and human health could not be
                  determined or demonstrated. As a result of disagreements
                  over the shifting of funds and Regional and state roles and
                  responsibilities, the PPG goal of developing partnerships to
                  share environmental and program goals needs to be
                  strengthened.



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  2-1.   Work with states to identify other areas where
                         additional administrative savings could be achieved.

                  2-2.   Assist states in developing a self assessment strategy
                         and reach a consensus on the state’s overall highest
                         environmental priorities.

                  2-3.   Assist the Texas State Environmental Assessment
                         Group in the development of environmental
                         indicators.

                  2-4.   Assist Oklahoma and Texas in developing and
                         reporting environmental indicators.

                  2-5.   Assist Oklahoma in defining the direction the State
                         would like to go under the Performance Partnership
                         Program.

                  2-6.   Highlight and communicate successful efforts to
                         improve partnerships throughout the Region,
                         particularly enforcement partnerships.


                            12                Report No. 1999-000208-R6-100282
                                Region 6 Oversight of Performance Partnership Grants

REGION 6 COMMENTS    The Region agreed with our findings and recommendations
AND OIG EVALUATION   and commented:

                            S        We support the comments about the Texas
                                     request to shift funds when core
                                     commitments, such as RCRA authorization
                                     activities, have not been completed. The
                                     RCRA oversight reports have documented
                                     that the State has not completed all RCRA
                                     core commitments.

                            S        We believe some of the measures that Texas
                                     identified as environmental indicators were
                                     misleading or were more in line of
                                     “efficiency” measures. Oklahoma did not
                                     even identify outcome measures or
                                     environmental indicators. We recognize we
                                     have a challenge in bringing this dimension
                                     to the PPAs.




                                13                Report No. 1999-000208-R6-100282
                             Region 6 Oversight of Performance Partnership Grants


                    CHAPTER 3
            PPG WORK PLANS NEED BETTER
             ACCOUNTABILITY PROVISIONS

                   The Region had not negotiated work plans that include
                   adequate programmatic accountability. The work plans did
                   not contain all core measures, did not clearly define all
                   PPG commitments, and were not finalized prior to the start
                   of the Oklahoma and Texas fiscal year. The Region did
                   not require all core measures be adopted in the agreements.
                   Further, Oklahoma and Texas did not consider that core
                   measures are required and stated that the Environmental
                   Council of States (ECOS) did not bind them to core
                   measures. Also, the two States have not been willing to
                   commit to core measures that cannot be drawn from
                   existing databases. Work plans were not always submitted
                   timely and negotiations were not always initiated and
                   completed timely. As a result, the Region and the two
                   States cannot always determine nor demonstrate whether
                   environmental performance or improvements have been
                   accomplished. Additionally, without defining
                   commitments until well into the fiscal year, States’
                   programmatic accountability is limited.



REGULATIONS AND    The 1996 PPG guidance outlines PPG work plan
GUIDANCE DEFINE    requirements as the basis for the management and
WORK PLAN          evaluation of performance under the grant agreement. The
COMPONENTS         PPG work plan should include core program commitments
                   (goals, performance measures, program activities) derived
                   from statutes, regulations, and standing legal agreements
                   between EPA and recipients. Performance measures that
                   are PPG program commitments must be time-specific,
                   measurable, quantifiable, and verifiable. In addition, EPA
                   encourages all recipients to adopt outcome and output
                   oriented performance measures that track program
                   performance and environmental conditions and trends.



                             14                Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

                     Appropriate accountability provisions are essential in
                     designing the new PPG program. The PPG guidance states
                     that a fundamental goal of EPA’s efforts to design
                     accountability provisions into PPGs is to begin moving
                     federal, state, and tribal programs toward the use of results-
                     oriented measures of environmental and program
                     performances that are understandable and meaningful to the
                     public. Further, the work plan should also establish
                     procedures (e.g., midyear and end-of-year reviews,
                     reporting requirements, joint activities) that EPA and the
                     recipient will use for evaluating accomplishments,
                     discussing progress, and making adjustments to meet
                     milestones. The PPG guidance states that EPA should work
                     with recipients to balance the need to maintain core
                     program requirements with the need to incorporate program
                     flexibility and move toward program performance measures
                     and environmental indicators.

                     Core performance measures are a limited set of national
                     measures designed to help gauge progress toward
                     protection of the environment and human health, as well as
                     provide a national picture of the status of the environment.
                     EPA and ECOS developed core performance measures to
                     help focus EPA and state attention on improving how they
                     measured the effectiveness of their environmental
                     protection efforts.



WORK PLANS DID NOT   The fiscal 1998 and 1999 Oklahoma and Texas agreements
CONTAIN ALL CORE     did not contain all the core performance measures.
MEASURES             National core performance measures, which are to be
                     incorporated in state agreements, were agreed to by EPA
                     and ECOS and adopted for fiscal 1998 and only slightly
                     modified for fiscal 1999. EPA and ECOS agreed to fiscal
                     2000 core performance measures in April 1999, which are
                     to be used in the fiscal 2000 agreements. Oklahoma and
                     Texas did not consider that core measures are required and
                     have claimed that ECOS did not represent them and cannot
                     bind them.



                               15                 Report No. 1999-000208-R6-100282
          Region 6 Oversight of Performance Partnership Grants

The Oklahoma agreements did not contain all the core
measures. Oklahoma has been very reluctant to make
changes to the Focus Plan; therefore, Regional program
staff and their counterparts in Oklahoma developed matrices
and addendums to the Plan. These matrices and addendums
include only some of the core measures because Oklahoma
would not agree to all the core measures, according to
Regional officials. Further, these matrices and addendums
were negotiated at the program level, and Oklahoma’s
senior management did not consider them to be binding. An
Oklahoma official commented that they did not want to
commit to expand the reporting requirement beyond what is
in the delegation agreements. A Regional official
commented in a letter dated September 1998, that the fiscal
1999 Focus Plan did not address the core performance
measures, nor did it stipulate specific objectives or
milestones that will be achieved to address the core
performance measures.

Oklahoma submitted a draft Focus Plan for fiscal 2000 with
significant changes in April 1999, which is still under
negotiation. The Plan does provide an attachment that lists
all the core measures. Changes to the Oklahoma Focus Plan
for fiscal 2000 were the result of internal State pressures
and not a result of Regional actions. The State Office of
Finance required performance measures because of a law
passed by the State Legislature.

Further, a joint management assistance review conducted
by the Region and the Office of Inspector General, dated
April 8, 1998, noted that the Texas 1998 PPA did not
include all core measures. For example, core measures for
RCRA and core measures for Air were not included. The
1999 PPA still did not contain these core measures.




         16                 Report No. 1999-000208-R6-100282
                                Region 6 Oversight of Performance Partnership Grants

OKLAHOMA’S PPG        The Oklahoma Focus Plan for 1998 and 1999 was mainly a
COMMITMENTS WERE      listing of job descriptions that did not clearly define PPG
NOT CLEARLY           commitments. Oklahoma has been very reluctant to make
DEFINED               changes to the Focus Plan; therefore, the Region has
                      attempted to get what it needed though matrices and
                      addendums. These matrices and addendums provide more
                      detail; however, Oklahoma senior management did not
                      consider the matrices and addendums to be binding
                      documents. According to Region program staff, they do
                      not use the Focus Plan to determine if Oklahoma is
                      meeting its commitments. Regional and State officials
                      want the fiscal 2000 Focus Plan to be just one document
                      that defines PPG commitments, thereby eliminating the
                      matrices and addendums.



WORK PLANS WERE       The Region and the two States have not defined work plan
NOT FINALIZED PRIOR   commitments until well into the States’ new fiscal year.
TO STATES’ FISCAL     Work plan commitments are the programmatic basis for the
YEAR                  PPG award and consist of environmental indicators,
                      performance measures, and descriptions of program
                      activities. By not defining these commitments until well
                      into the new fiscal year, the Region and States cannot
                      ensure that the environmental commitments will be
                      accomplished.

                      The Oklahoma draft Focus Plan for fiscal 2000, received
                      by the Region in April 1999, had not been formally
                      negotiated as of the date of our review. Negotiations for
                      fiscal 1999 were not started until after the start of
                      Oklahoma’s fiscal year. A Regional official, in a
                      September 25, 1998 letter (3 months into the State’s new
                      fiscal year), commented that he had not received copies of
                      the 1999 Focus Plan until mid to late July. He was
                      concerned that copies should have been sent to the Region
                      for review no later than May 1, 1998, prior to the State’s
                      new fiscal year. He commented that this resulted in not
                      having an agreed upon document for all programs. 40 CFR
                      Part 35 states that an applicant should submit a complete



                                17                Report No. 1999-000208-R6-100282
                             Region 6 Oversight of Performance Partnership Grants

                  application at least 60 days before the start of the budget
                  period.

                  The fiscal 1999 Texas PPA, revised January 1999, was not
                  issued until 4 months into the new fiscal year.



CONCLUSION        As a result of the lack of core measures, the Region and the
                  two States cannot always demonstrate the progress toward
                  protection of the environment and human health nor
                  provide a Regional picture of the status of the environment.
                  Core measures were developed to help focus EPA and state
                  attention on improving how the effectiveness of their
                  environmental protection efforts was measured.

                  Without clearly defining commitments until well into the
                  fiscal year, States’ accountability is limited. Also, it is not
                  clear what the Region monitors to ensure that
                  environmental improvements are accomplished.



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  3-1.    Work with Oklahoma to ensure that the final version
                          of the fiscal 2000 and future Focus Plans contain all
                          applicable core measures and are clear on how the
                          measures will be addressed.

                  3-2.    Require that all PPG work plans contain and address
                          all applicable core measures.

                  3-3.    Work with Oklahoma and Texas earlier in the
                          process to negotiate the work plans. Meet prior to
                          States’ development of the work plans to discuss
                          expectations.

                  3-4.    Require timely submittal of work plan proposals and
                          assure that negotiations are completed before the
                          start of the fiscal year.


                             18                 Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants




                     Region 6 provided comments to clarify portions of the
REGION 6 COMMENTS    report, and we have incorporated these comments and
AND OIG EVALUATION   modified the report as appropriate.

                     Region 6 generally agreed with our findings and
                     recommendations. For RCRA, the Region commented that
                     it supports the comments in the report about delays in
                     finalizing negotiated work plan commitments. It further
                     commented that it is initiating discussions with each State
                     at an earlier date than in previous years, to complete work
                     plan negotiations in a more timely manner. For example,
                     the State of Oklahoma fiscal 2000 RCRA work plan was
                     approved by EPA on August 13, 1999, 2 months sooner
                     than the approval for fiscal 1999. The State of Texas fiscal
                     2000 RCRA work plan is near approval. As you are aware,
                     the Texas fiscal 2000 program year begins on September 1,
                     1999. However, the Region also commented that:

                            - The presentation of conclusions regarding
                            Accountability Provisions (Chapter 3)
                            contains some broad statements that are not
                            necessarily true in all programs in both
                            States. This chapter focuses on our track
                            record regarding core measures, but does not
                            adequately recognize the effort we make to
                            assure that all statutory requirements are
                            addressed and committed to.

                            - Also, we disagree with the sentence that
                            states, “Negotiations of work plans were not
                            initiated timely, and time frames for the
                            process were not established.” We typically
                            do a good job of issuing HQ and Regional
                            guidance as early as possible in the spring
                            (thus starting the negotiation process). We
                            have an established date for submittal of
                            applications and a goal of awarding funds
                            within 90 days of their receipt in the Region.

                               19                Report No. 1999-000208-R6-100282
  Region 6 Oversight of Performance Partnership Grants

However, this may not have been reflected in
Oklahoma’s case for fiscal years (FY) 1998
and 1999 since Oklahoma requested that the
grant cycle coincide with their State FY. In
order to be responsive to the State’s needs,
this moved their schedule up by three months
and may have caused much confusion at the
State and EPA. We acknowledge that we
often are still negotiating well into the first
quarter ... but, it is not because we have no
established time frames .... it is because we
often miss those deadline for a wide variety
of causes.




  20                 Report No. 1999-000208-R6-100282
                                Region 6 Oversight of Performance Partnership Grants


                     CHAPTER 4
       REGION 6 OVERSIGHT COULD BE IMPROVED
                      The Region did not, in all instances, ensure that PPG work
                      plan objectives were accomplished. The Region and Texas
                      were able to negotiate a multimedia enforcement
                      Memorandum of Understanding (MOU) that did not limit
                      the Region’s oversight capabilities, and work plan
                      objectives were clear. Barriers that hindered Regional
                      oversight of Oklahoma stemmed from limitations contained
                      in the fiscal 1996 Umbrella Agreement and clarity of work
                      plan objectives. Further, Regional oversight was not
                      always coordinated among programs. As a result, Regional
                      staff spent time and resources supporting several ways to
                      evaluate work plan objectives rather than on measuring or
                      determining environmental results.



PPG GUIDANCE REFERS   The PPG guidance refers to strengthening partnerships
TO STRENGTHENING      between EPA and recipients. NEPPS emphasizes the need
PARTNERSHIPS          to reduce EPA oversight or use differential oversight and
                      increase technical assistance. However, neither stated that
                      EPA should eliminate its oversight. An important aspect of
                      the PPG program is for regions to determine the
                      appropriate amount of oversight needed while providing
                      the maximum amount of flexibility for recipients to
                      accomplish environmental results. The PPG work plan is
                      the key document holding the recipient responsible, and
                      regions must ensure that those commitments in the work
                      plan are accomplished and adequately documented.



REGION 6 AND TEXAS    The joint MAR, issued in April 1998, recommended that
WERE ABLE TO AGREE    the Region’s Compliance Assurance and Enforcement
ON ENFORCEMENT        Division and Texas negotiate a workable MOU that had
ROLES                 been committed to in the fiscal 1997 PPA, dated October
                      1996. As a result, the Region and Texas were able to
                      negotiate a multimedia enforcement MOU, dated April


                                21                Report No. 1999-000208-R6-100282
                                Region 6 Oversight of Performance Partnership Grants

                     1999, that is much less restrictive than the Oklahoma
                     Umbrella Agreement.



LIMITATIONS IN       Regional oversight of Oklahoma has been hindered by
OKLAHOMA             enforcement limitations contained in the fiscal 1996
AGREEMENT HINDER     Umbrella Agreement. The Umbrella Agreement is still in
REGIONAL OVERSIGHT   place and has never been updated. The Umbrella
                     Agreement limits the Region’s ability to perform oversight
                     and implement Office of Enforcement and Compliance
                     Assurance guidance. According to Regional officials, there
                     was a push in 1996 by Oklahoma and senior management
                     in the Region to sign the Umbrella Agreement so that it
                     would be the first to be signed. Regional officials
                     commented that the Region made a mistake in approving
                     the Umbrella Agreement because of the limitation of the
                     Region’s oversight role, specifically the authority for over-
                     filing and inspections. According to a Regional official,
                     based on the previously negotiated delegation agreements
                     for various programs, the Umbrella Agreement incorrectly
                     defined the roles of the Region and the State, since it
                     contradicted the delegation agreements. The State
                     contended that the roles listed in the Umbrella Agreement
                     are all-inclusive (if it is not listed here it does not apply).
                     Regional officials commented that they are now living with
                     this agreement and they have been talking for over a year
                     about renegotiating it. The officials believe issues with the
                     Umbrella Agreement are hurting the Region and State
                     relationship.

                     Regional officials stated that they had a side agreement to
                     negotiate a multimedia enforcement MOU which would
                     define what they would do under the PPA. Negotiations on
                     a multimedia MOU have been ongoing for the past 2 ½
                     years. Therefore, Regional enforcement personnel relied on
                     other than the Umbrella Agreement and Focus Plan for
                     authority to perform oversight inspections in Oklahoma.
                     Further, the Oklahoma enforcement partnership has been
                     weakened due to the dispute over roles and responsibilities
                     regarding inspection activities. As a result, Regional


                               22                  Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

                     officials believe that they cannot use the PPA, but must use
                     the delegation agreements and old categorical enforcement
                     MOUs, some of which go back to the 1980's to find
                     authority to perform oversight.



OKLAHOMA’S           Oklahoma Focus Plan objectives were not clear, which
UNCLEAR OBJECTIVES   made it difficult for the Region to determine State
FURTHER LIMITED      accomplishments. As a result, Regional program personnel
REGIONAL OVERSIGHT   relied on other than the Focus Plan to determine
                     accomplishments under the grant. Regional personnel
                     relied on matrices, addendums, old categorical enforcement
                     MOUs, statutory requirements, primacy agreements and
                     program memorandums of agreements with the State.

                     Documents used vary by program. For RCRA, the
                     matrices are used as what the State is held accountable for,
                     since at times the numbers in the Focus Plan may differ
                     from the matrix. For Air, both the Focus Plan and the
                     addendum are used. For the Underground Injection
                     Control and Public Water System programs, the project
                     officer does not rely on the Focus Plan, but instead on
                     regulations and primacy agreements. As a result, Regional
                     staff spent additional time and resources supporting several
                     ways to evaluate program performance rather than on
                     measuring or determining environmental results.



REGIONAL OVERSIGHT   Oklahoma and Texas officials have both raised concerns
WAS NOT              about the lack of coordination within the Region resulting in
EFFECTIVELY          their feeling they have to deal with multiple EPAs. Both
COORDINATED          States believed that Regional oversight is still performed the
                     same as under categorical grants. For example, mid-year
                     and end-of-year reviews were performed individually by
                     program and were not consolidated.

                     A Texas official commented that he had hoped that the
                     Region's reorganization would result in better coordination
                     and that the State would have one primary contact for the


                               23                 Report No. 1999-000208-R6-100282
                       Region 6 Oversight of Performance Partnership Grants

             grant. However, he commented that the Region is still
             doing oversight separately by media. Texas officials were
             concerned that the Region is back to doing separate media
             midyear reviews that are not coordinated. They commented
             that the Region is not consolidating its report process and
             that Texas had consolidated its reporting. For example, he
             commented that the State sends one consolidated report for
             its midyear report, but the Region cannot coordinate
             comments to the report. He stated that when the report
             gets to the Region, it is torn apart by media and then
             comments to the State are done by media.

             The annual reports submitted by Oklahoma and Texas do
             not give a good reflection of progress under the PPG.
             Therefore, the Region relies on progress reporting by the
             individual programs, database information, conference calls
             by media, etc. Further, as discussed in the MAR of the
             Texas PPG, the annual report does not always provide a
             true picture of what is happening in the State. For
             example, in reading the report one would find no
             documentation that the Dallas-Ft. Worth area is not
             meeting ozone attainment, and meets the requirements for a
             bump-up from moderate to serious. Regional officials still
             have similar concerns that environmental indicators are
             misleading.

             Regional program staffs do not believe that the Oklahoma
             annual report told what was accomplished, and commented
             that commitments were so vague in the Focus Plan, that the
             annual report could not tell them what was accomplished.



CONCLUSION   Regional oversight has been fragmented by specific
             program and is not effectively coordinated. As a result,
             Regional staff spent time and resources supporting several
             ways to evaluate work plan objectives rather than on
             measuring or determining environmental results.




                       24                Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants




RECOMMENDATIONS      We recommend that the Regional Administrator:

                     4-1.   Work with Oklahoma to ensure that the final
                            versions of the fiscal 2000 and future Focus Plans
                            are clear on how measures will be addressed.

                     4-2.   Renegotiate the Oklahoma Umbrella Agreement or
                            enter into an enforcement MOU that clearly defines
                            the oversight roles and does not inappropriately limit
                            EPA’s authority.

                     4-3.   Work toward a more unified approach to oversight
                            by:

                                   S       Developing a more unified oversight
                                           strategy among the Regional staff to
                                           ensure that the States accomplish the
                                           PPG work plan objectives.

                                   S       Working with Oklahoma and Texas
                                           to develop an end-of-year report that
                                           better reflects the environmental
                                           outcomes of the PPG.



REGION 6 COMMENTS    Region 6 generally agreed with our findings and
AND OIG EVALUATION   recommendations.




                              25                 Report No. 1999-000208-R6-100282
                                               Region 6 Oversight of Performance Partnership Grants


                               EXHIBIT 1
                        SCOPE AND METHODOLOGY

Our first objective was to determine if Region 6 effectively implemented its PPG program to
ensure that recipients accomplished overall PPG objectives. Our review of the Region's PPG
program included:

       S      Interviewing PPG project officers for air, water, and hazardous waste programs,
              regarding their roles and responsibilities related to the PPG program.

       S      Reviewing national and regional PPG guidance and policy to determine program
              requirements and consistency between national and regional guidance.

       S      Interviewing regional program managers and staff regarding their knowledge of
              PPG program goals and their implementation of those goals.

       S      Reviewing PPG project officers' performance standards to determine if they have
              measures related to effectively implementing the program.

       S      Evaluating PPG program coordination and communication among regional and
              state staff to determine if the Region's process was effective.

       S      Evaluating the Region’s organizational placement of PPG program
              responsibilities to determine whether the placement facilitated effective program
              implementation.

       S      Interviewing a judgmental sample of state managers and program staff regarding
              the Region’s actions to effectively implement its PPG program and accomplish
              program goals. We interviewed staff from ODEQ in Oklahoma City, Oklahoma;
              and the TNRCC in Austin, Texas.

       S      Reviewing information from the April 1998 MAR of the Texas 1997 PPG, and
              1998 and 1999 work plans to determine if similar issues existed.

       S      Reviewing the Region's Federal Managers' Financial Integrity Act report for
              fiscal 1998 to determine whether the report disclosed any material weaknesses
              related to the PPG program and the Region's actions to address those weaknesses.




                                               26                Report No. 1999-000208-R6-100282
                                              Region 6 Oversight of Performance Partnership Grants




Our second objective was to determine if Region 6 negotiated PPG work plans that included
adequate programmatic accountability. Our review of recipients PPG work plans included:

       S      Reviewing national and regional guidance to determine the requirements for PPG
              work plans.

       S      Interviewing Regional officials to determine its PPG work plan negotiation
              process to determine how PPG work plan commitments were negotiated, who
              participated, and how disputes were addressed.

       S      Reviewing a judgmental sample of state work plans for fiscal 1998 and 1999 to
              determine whether required work plan elements were included such as core
              performance measures. We also reviewed the work plans to determine whether
              commitments included outcome measures and that those measures were
              verifiable, measurable, quantifiable and time-specific. We reviewed the 1999
              Texas work plan and evaluated whether suggestions from the April 1998
              Management Assessment Review were implemented. We limited our review of
              the work plans to commitments related to the air, water, and hazardous waste
              programs.

       S      Interviewing regional program staff to determine whether they used work plans
              and how they ensured the work plans had adequate programmatic accountability.

Our third objective was to determine if Region 6's oversight ensured that recipients
accomplished PPG work plan objectives. Our review of the Region's oversight of PPG work
plans and funds included:

       S      Reviewing PPG project officers’ files to obtain information on the methods and
              actions used to monitor and evaluate PPG activities.

       S      Interviewing regional staff and reviewing PPG project files to determine whether
              the Region had an agreement with recipients on the extent of PPG oversight and
              end-of-year reporting requirements.

       S      Interviewing regional program managers and staff regarding their oversight of
              PPG commitments and whether they reviewed and used PPG end-of-year
              reports.

       S      Evaluating a judgmental sample of PPG end-of-year reports for fiscal 1998 to
              determine if recipients accomplished all work plan commitments and described

                                              27                Report No. 1999-000208-R6-100282
                               Region 6 Oversight of Performance Partnership Grants

progress toward environmental goals. We reviewed the 1998 state end-of-year
reports for Oklahoma and Texas.




                               28                Report No. 1999-000208-R6-100282
                                               Region 6 Oversight of Performance Partnership Grants


                                   APPENDIX I
                                AGENCY RESPONSE



                                       September 7, 1999




MEMORANDUM

SUBJECT:       Response to OIG’s Draft Audit Report on Performance Partnership Grants
               Audit Report Number 1999-000208-CAD6

FROM:          Lynda F. Carroll                    /s/ by Lynda F. Carroll
               Assistant Regional Administrator
                for Management (6MD)

TO:            Bennie S. Salem
               Divisional Inspector General
               Central Audit Division

        The Office of Inspector General’s (OIG) draft audit report on Performance Partnership
Grants, Region 6's Oversight of Performance Partnership Grants, report number 1999-000208-
CAD6, dated August 5, 1999, has been reviewed as requested. The review of the draft audit
report was made by the staff of the Region 6 Compliance Assurance and Enforcement Division
(6EN), Multimedia Planning and Permitting Division (6PD), and Water Quality Protection
Division (6WQ). The comments for Region 6 on subject draft audit report are reflected on the
attachment.

       Thank you for the opportunity to comment on the subject draft audit report. If you have
any questions, please call me, or you can contact Jim Ealey, Audit Resolution Coordinator,
Resource Branch at (214) 665-6534.

Attachment

cc:    Boyce          (6OIG)



                                              29                 Report No. 1999-000208-R6-100282
                                                Region 6 Oversight of Performance Partnership Grants

                                                                                 Attachment
                                                                                 Page 1 of 3
       The following comment are furnished in response to the OIG’s draft audit report on
Performance Partnership Grants, Region 6's Oversight of Performance Partnership Grants, report
number 1999-000208-CAD6, dated August 5, 1999:

MULTIMEDIA PLANNING AND PERMITTING DIVISION (6PD)
       The Multimedia Planning and Permitting Division concurs with the findings/conclusions
and recommendations presented in the report

RCRA Grants and Authorization Section (6PD-G)
C   The Executive Summary mentions that the work plans are not finalized prior to the start of
    the Oklahoma and Texas fiscal years. This comment, to date, is correct; however, no
    funds are awarded until program activities, equal to that level of funding, have been
    negotiated with the States. This is the case for partial awards of forward funding. It
    should be noted that forward funding is not often provided to the State of Texas.
C   We support the comments in the report about delays in finalizing negotiated work plan
    commitments. We are initiating discussions with each State at an earlier date than in
    previous years, to complete work plan negotiations in a more timely manner. For
    example, the State of Oklahoma FY 2000 RCRA work plan was approved by EPA on
    August 13, 1999, two months sooner than the approval for FY 1999. The State of Texas
    FY 2000 RCRA work plan is near approval. As you are aware, the Texas FY 2000
    program year begins on September 1, 1999.
C   For the State of Texas and Oklahoma, a work plan matrix is prepared that documents the
    negotiated commitments. For the State of Oklahoma we relied on the Focus Plan in
    addition to the prepared matrix. The State will revise the Focus document to reflect the
    RCRA commitments for FY 2000.
C   We support the comments about the Texas request to shift funds when core commitments,
    such as RCRA authorization activities, have not been completed. The RCRA oversight
    reports have documented that the State has not completed all RCRA core commitments.

Pesticides Section (6PD-P)
C      We are concerned about the lack of availability to have specific goals and milestones in the
       work plan. The only item that we were allowed to put into the work plan was the very
       broad overall scope of the Pesticides in Groundwater State Management Plan (PMP)
       program. No specific time lines or milestones were allowed. After the PMP Rule is
       signed and published in the Federal Register, there will be some very specific actions and
       dates that will have to be met, and it appears we will not be able to put them in the PPG
       work plan.




                                                30                Report No. 1999-000208-R6-100282
                                                Region 6 Oversight of Performance Partnership Grants

                                                                                    Attachment
                                                                                    Page 2 of 3
C      Regarding TNRCC’s concern over media-specific oversight, the Pesticides program has to
       do media-specific oversight because we have no connection to any of the other programs
       that are covered under this PPG. This requires us to deal individually with the TNRCC
       program personnel responsible for our program and to do specific oversight with those
       people.

Air State and Tribal Operations Section (6PD-S)
C      The Air Program negotiated specific “outputs” linked to core performance measures in
       accordance with our Office of Air and Radiation national guidance with both Oklahoma
       and Texas. Since many air program core performance measures are very broad and long
       range goals, certain activities are identified for states to complete on an annual basis to
       meet an objective one to three years in the future. These priorities, as opposed to
       outcome measures or “environmental priorities” are measurable in terms of State progress
       from year to year. An example is, if a state is required by the Clean Air Act to submit a
       State Implementation Plan two years from now, regulation development, monitoring,
       modeling, etc., would be required in year one to meet the deadline in year two.
C      We believed some of the measures that Texas identified as environmental indicators were
       misleading or were more in line of “efficiency” measures. Oklahoma did not even identify
       outcome measures or environmental indicators. We recognize we have a challenge in
       bringing this dimension to the PPAs.
C      Regarding the statement that we must rely on documents other than the PPA to ensure the
       states accomplish PPG objectives that are not much different from categorical grants. The
       whole concept of NEPPS is streamlining. Why should a PPA reiterate all the conditions
       of an MOU or delegation agreement when those documents are as binding as the PPG?
       Both states’ PPAs contain language committing to meeting provisions of MOUs and
       delegation agreements. So, in our oversight, we consider all these documents holistically.
C      Regarding TNRCC’s desire to “have one primary contact for the grant” (page 19);
       unfortunately, the organizational structures of both of our organizations do not lend
       themselves for employing a sole source contact. The use of a sole source contact would
       funnel communication to and from our organizations that would further delay timely
       responses from program to program.
C      Regarding TNRCC’s desire for consolidated reporting and coordinated comments to its
       report. Experience and communication with TNRCC staff have indicated that attempts
       made in FY 1997 and 1998 to consolidate reporting and comments back to TNRCC only
       resulted in the same “tearing apart” of these documents for distribution to each media.




                                               31                 Report No. 1999-000208-R6-100282
                                                 Region 6 Oversight of Performance Partnership Grants

                                                                                    Attachment
                                                                                    Page 3 of 3
C      We hope that TNRCC’s ongoing reorganization will reduce our need to conduct the Air
       Program’s yearly negotiations and perform mid- and end-of-year reviews with four
       separate divisions, those being Division of Border Affairs, Division of Air Quality,
       Planning and Assessment, Division of Air/New Source Review, and the Division of
       Air/Operating Permits.

WATER QUALITY PROTECTION DIVISION (6WQ)
        The Water Quality Protection Division (6WQ) concurs in general with the
findings/conclusions and recommendations presented in the report However, we still wish that
the report would mention that the problems experienced in Region 6 are not unique and seem to
coincide quite well with what is being experienced in other Regions.

Assistance Programs Branch (6WQ-A)
C      The presentation of conclusions regarding Accountability Provisions (Chapter 3) contains
       some broad statements that are not necessarily true in all programs in both States. This
       chapter focuses on our track record regarding core measures, but does not adequately
       recognize the effort we make to assure that all statutory requirements are addressed and
       committed to.
C      Also, we disagree with the sentence that states, “Negotiations of work plans were not
       initiated timely, and time frames for the process were not established.” We typically do a
       good job of issuing HQ and Regional guidance as early as possible in the spring (thus
       starting the negotiation process). We have an established date for submittal of
       applications and a goal of awarding funds within 90 days of their receipt in the Region.
       However, this may not have been reflected in Oklahoma’s case for fiscal years (FY) 1998
       and 1999 since Oklahoma requested that the grant cycle coincide with their State FY. In
       order to be responsive to the State’s needs, this moved their schedule up by three months
       and may have caused much confusion at the State and EPA. We acknowledge that we
       often are still negotiating well into the first quarter ... but, it is not because we have no
       established time frames .... it is because we often miss those deadline for a wide variety of
       causes.

COMPLIANCE ASSURANCE AND ENFORCEMENT DIVISION (6EN)
        The Compliance Assurance and Enforcement Division (6EN) had no comments to offer on
subject draft audit report.




                                                 32                 Report No. 1999-000208-R6-100282
                             Region 6 Oversight of Performance Partnership Grants



                  APPENDIX II
                ABBREVIATIONS

ECOS        Environmental Council of States

EPA         Environmental Protection Agency

FSR         Financial Status Report

MOU         Memorandum of Understanding

NEPPS       National Environmental Performance Partnership System

ODEQ        Oklahoma Department of Environmental Quality

OIG         Office of Inspector General

PPA         Performance Partnership Agreement

PPG         Performance Partnership Grant

RCRA        Resource Conservation and Recovery Act

TNRCC       Texas Natural Resource Conservation Commission

Umbrella
Agreement   Oklahoma Environmental Performance Partnership
              Agreement




                             33                Report No. 1999-000208-R6-100282
                                              Region 6 Oversight of Performance Partnership Grants


                                     APPENDIX III
                                    DISTRIBUTION

Office of Inspector General

       Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

EPA Headquarters Office

       Assistant Administrator for Water (4101)
       Agency Followup Official (2710)
       Agency Followup Coordinator (3304)
       Associate Administrator for Congressional and Legislative Affairs (1301)
       Associate Administrator for Communications, Education, and Public Affairs (1701)
       Associate Administrator for Regional Operations and State/Local Relations (1501)
       Headquarters Library (3401)

EPA Region 6

       Director, Water Quality Protection Division (6WQ)
       Director, Office of External Affairs (6XA)
       Audit Followup Coordinator (6MD-R)
       Regional Library

Oklahoma Department of Environmental Quality

       Mr. Steve Thompson, Deputy Executive Director
       P.O. Box 1677
       Oklahoma City, OK 73102

Texas Natural Resource Conservation Commission

       Mr. Jeff Saitas, Executive Director
       P.O. Box 13087
       Austin, TX 78711-3087



                                              34                Report No. 1999-000208-R6-100282
